Memorandum from the Office of the Inspector General



November 20, 2008

John E. Long, Jr., WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2008-11942 – TVA TELEWORK INITIATIVES



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

If you have any questions, please contact Lisa H. Hammer, Project Manager, at
(865) 633-7342 or John H. Barrow, Director (Acting), Financial and Operational Audits, at
(865) 633-7323. We appreciate the courtesy and cooperation received from your staff
during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

LHH:JP
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Elizabeth M. Nickle, WT 8D-K
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 2008-11942
Office of the Inspector General           Audit Report
                                  To the Chief Administrative Officer
                                  and Executive Vice President,
                                  Administrative Services




TVA TELEWORK
INITIATIVES




Project Manager                                       Audit 2008-11942
Lisa H. Hammer                                       November 20, 2008
                      TVA Office of the                              November 2008
                      Inspector General                              Audit 2008-11942
                                                                     TVA Telework Initiatives
Why the OIG Did This Review                                          What the OIG Found
Telework has gained widespread attention over the past
                                                                     We reviewed TVA's efforts to implement telework to date as well
decade in both the public and private sectors with a number
of potential benefits to employers, employees, and society.          as any planned telework initiatives. Our review determined:
These benefits include reducing traffic congestion and
pollution, improving recruitment and retention of                    •   Business Practice 20, Off-site Use of Business Equipment
employees, and increased productivity. Employee benefits                 (BP20), provides a framework for telework; however, we
from teleworking include reduced commuting time; lowered                 found little evidence of compliance with the policy, especially
costs of transportation, parking, food, and wardrobe;                    as related to required training and method of approval.
removal of barriers for those with disabilities; and
improvement in the quality of work life and morale.                  •   Pockets of teleworkers exist throughout TVA. However, TVA
Congress has enacted several laws addressing telework for                has no system for tracking individuals who telework and the
federal employees. A 2000 act mandated telework and                      extent to which they telework.
required each executive agency to establish a policy for
eligible employees to participate in telecommuting to the
                                                                     •   Employees are approved to telework by being granted
maximum extent possible. Recently, the U.S. House of
                                                                         remote access to TVA systems instead of following the
Representatives passed H.R. 4106, Telework
                                                                         BP 20 approval process.
Improvements Act of 2008. If this Act becomes law, it
would require executive agencies to develop a telework
program that allows employees to telework at least                   We did not identify any planned telework initiatives. Should the
20 percent of the hours worked in every 2 administrative             number of concurrent remote users increase, TVA may need to
workweeks.                                                           increase its remote access capabilities.
This audit assessed TVA's efforts to implement telework to
date as well as any planned telework initiatives.                    We also reviewed TVA's COOP and Pandemic plan and
                                                                     determined both adequately included the use of telework in those
What the OIG Recommends                                              programs. However, the COOP does not require essential
We recommend the Chief Administrative Officer and Executive          employees to take their laptop computers home in the evenings
Vice President (CAO and EVP), Administrative Services:               to ensure continuity of operations in the event they are unable to
•   Work with other TVA organizations to perform an                  move to the alternative location during an emergency.
    assessment to determine which jobs and functions in TVA
    are conducive to telework.                                       In addition, telework is being considered by Facilities
•   Consider a pilot program that would inform future                Management in their space-reduction plans. However, any
    decisions about telework and identify ways to use telework       decisions made would require buy-in from management.
    to facilitate Continuity of Operations Plan (COOP) planning
    and responding to emergency situations such as
    pandemics or natural disasters.
•   Implement a telework policy that provides (1) a method for
    approving employees to telework, (2) appropriate training
    to supervisors and all employees authorized to telework,
    (3) a tracking system for individuals who telework, and
    (4) effective communication of TVA's telework policy to
    TVA employees.
•   Consider designating a Telework Managing Officer.
•   Consider requiring essential employees to take their laptop
    computers home each evening in the event an emergency
    occurs and they are unable to move to the alternative
    location.
The CAO and EVP, Administrative Services, provided
comments on a draft of this report. The CAO and EVP,
Administrative Services, agreed to work with other TVA
organizations to determine which jobs and functions in TVA are
conducive to telework. Upon completion of that assessment,
the CAO and EVP, Administrative Services, will take
appropriate actions regarding our other recommendations.
For more information, contact Lisa H. Hammer, Project Manager, at
(865) 633-7342 or John H. Barrow, Director (Acting), Financial and
Operational Audits, at (865) 633-7323.
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY .................................................................................... i

BACKGROUND.................................................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ............................................ 1

FINDINGS ............................................................................................................. 2
   CURRENT EFFORTS TO IMPLEMENT TELEWORK ......................................... 2
     Compliance with TVA's Telework Policy ................................................................ 3
     Current Teleworkers in TVA ................................................................................. 4
     Remote Access to TVA Systems .......................................................................... 4

   FUTURE/PLANNED INITIATIVES........................................................................ 4
     H.R. 4106, Telework Improvements Act of 2008 .................................................... 5

   OTHER INITIATIVES RELATED TO TELEWORK ............................................... 5
     Continuity of Operations Plan ............................................................................... 6
     Pandemic Plan ................................................................................................... 6
     Telework and Reduction of Office Space ............................................................... 7

RECOMMENDATIONS ...................................................................................... 8


APPENDIX
MEMORANDUM DATED NOVEMBER 14, 2008, FROM JOHN E. LONG TO
ROBERT E. MARTIN




Audit 2008-11942
Office of the Inspector General                                           Audit Report


EXECUTIVE SUMMARY
Telework has gained widespread attention over the past decade in both the
public and private sectors with a number of potential benefits to employers,
employees, and society. These benefits include reducing traffic congestion and
pollution, improving recruitment and retention of employees, increasing
productivity, and reducing the need for office space. Employees also can realize
benefits from teleworking including reduced commuting time; lowered costs in
areas such as transportation, parking, food, and wardrobe; removal of barriers for
those with disabilities who want to be part of the workforce; and improvement in
the quality of work life and morale resulting from the opportunity to better balance
work and family demands. In recent years, Congress has enacted several laws
addressing telework for federal employees. Another act was recently passed by
the House of Representatives.

We reviewed TVA's efforts to implement telework to date as well as any planned
telework initiatives. Our review determined:

•   Business Practice 20, Off-site Use of Business Equipment (BP 20), provides a
    framework for telework; however, we found little evidence of compliance with
    the policy, especially as related to required training and method of approval.
•   Pockets of teleworkers exist throughout TVA. However, TVA has no system
    for tracking individuals who telework and the extent to which they telework.
•   Employees are approved to telework by being granted remote access to TVA
    systems instead of following the BP 20 approval process.

We did not identify any planned telework initiatives. Should the number of
concurrent remote users increase, TVA may need to increase its remote access
capabilities.

We also reviewed TVA's Continuity of Operations Plan (COOP) and Pandemic
plan and determined both adequately included the use of telework in those
programs. However, the COOP does not require essential employees to take
their laptop computers home in the evenings to ensure continuity of operations in
the event they are unable to move to the alternative location during an
emergency.

In addition, telework is being considered by Facilities Management in their
space-reduction plans. However, any decisions made would require buy-in from
management.




Audit 2008-11942                                                               Page i
Office of the Inspector General                                         Audit Report


We recommend the Chief Administrative Officer and Executive Vice President
(CAO and EVP), Administrative Services:

•   Work with other TVA organizations to determine which jobs and functions in
    TVA are conducive to telework.
•   Consider a pilot program that would inform future decisions about telework
    and identify ways to use telework to facilitate COOP planning and responding
    to emergency situations such as pandemics or natural disasters.
•   Implement a telework policy that provides (1) a method for approving
    employees to telework, (2) appropriate training to supervisors and all
    employees authorized to telework, (3) a tracking system for individuals who
    telework, and (4) effective communication of TVA's telework policy to TVA
    employees.
•   Consider designating a Telework Managing Officer.
•   Consider requiring that essential employees take their laptop computers
    home at the end of their workday in the event an emergency occurs and they
    are unable to move to the alternative location.

The CAO and EVP, Administrative Services, provided comments on a draft of
this report (see Appendix). The CAO and EVP, Administrative Services, agreed
to work with other TVA organizations to determine which jobs and functions in
TVA are conducive to telework. Upon completion of that assessment, the CAO
and EVP, Administrative Services, will take appropriate actions regarding our
other recommendations.




Audit 2008-11942                                                             Page ii
Office of the Inspector General                                                               Audit Report


BACKGROUND
Telework has gained widespread attention over the past decade in both the
public and private sectors with a number of potential benefits to employers,
employees, and society. These benefits include reducing traffic congestion and
pollution, improving recruitment and retention of employees, increasing
productivity, and reducing the need for office space. Employees also can realize
benefits from teleworking including reduced commuting time; lowered costs in
areas such as transportation, parking, food, and wardrobe; removal of barriers for
those with disabilities who want to be part of the workforce; and improvement in
the quality of work life and morale resulting from the opportunity to better balance
work and family demands.

In October 2000, Congress enacted the Department of Transportation and
Related Agencies Appropriations Act, 2001, Public Law 106-346. Section 359 of
this Law states "each executive agency shall establish a policy under which
eligible employees of the agency may participate in telecommuting to the
maximum extent possible without diminished employee performance." TVA was
not required to comply with this Law since TVA does not receive appropriated
funds. However, in March 2001, TVA issued Business Practice 20, Off-site Use
of Business Equipment (BP 20), which established authorization for employees'
use of TVA equipment at an employee's home or at a TVA-approved site.
Further legislation followed in 2004 with directives to the Departments of
Commerce, State, the Judiciary, and the Small Business Administration to
increase telework participation by specified amounts.

Recently, the U.S. House of Representatives passed H.R. 4106, Telework
Improvements Act of 2008. If passed by the Senate and signed into law, this Act
would require executive agencies to develop a telework program that allows
employees to telework at least 20 percent of the hours worked in every
2 administrative workweeks.1 The Act also states that the head of each agency
"shall ensure that (1) to the maximum extent practicable, telework is incorporated
into the continuity of operations planning of such agency; and (2) mission critical
personnel, as determined by the head of such agency, are equipped to telework
in time of a catastrophe."


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to assess TVA's efforts to implement telework to date as well
as any planned telework initiatives. To achieve our objective, we:




1
    H.R. 4106 was passed by the House in June 2008 and is expected to be considered by the Senate in its
    upcoming legislative session.
Audit 2008-11942                                                                                   Page 1
Office of the Inspector General                                           Audit Report


•   Reviewed relevant policies and procedures related to telework including
    TVA's (1) BP 20, (2) Continuity of Operations Plan (COOP), and
    (3) Pandemic plan;
•   Interviewed personnel responsible for the COOP and Pandemic plan to
    determine the extent telework is included in those plans;
•   Interviewed Human Resources (HR) personnel to determine the extent of
    telework within their respective organizations, as well as compliance with
    telework policies;
•   Interviewed Facilities Management (FM) personnel to determine the potential
    effects of telework on real estate space; and
•   Obtained information related to remote access via the Virtual Privacy Network
    (VPN) from Information Services' (IS) personnel, as well as any requirements
    needed to increase the current VPN capacity.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. In performing this audit,
nothing came to our attention that indicated noncompliance with applicable laws
and regulations.


FINDINGS
We found (1) little evidence of compliance with TVA's current telework policy,
(2) pockets of teleworkers within TVA, but no system of tracking those individuals
who telework, and (3) approval of employees to telework by being granted
remote access to TVA systems instead of following the BP 20 approval process.
In addition, we did not identify any future telework initiatives and determined that
TVA's COOP and Pandemic plans adequately included the use of telework but
did not require essential employees to take their laptop computers home each
evening.

CURRENT EFFORTS TO IMPLEMENT TELEWORK
We assessed TVA's current efforts to implement telework and found limited
telework occurring at TVA. Although there are currently no federal requirements
for TVA employees to telework, TVA's BP 20 provides for authorization of
employees to use TVA equipment at their homes or other non-TVA locations.
However, we found:



Audit 2008-11942                                                               Page 2
Office of the Inspector General                                            Audit Report


•   Little evidence of compliance with the policy, especially as related to required
    training and method of approval.
•   Pockets of teleworkers exist throughout TVA. However, TVA has no system
    for tracking the extent to which telework is occurring.
•   Employees are approved to telework by being granted remote access to TVA
    systems instead of following the BP 20 approval process.

Compliance With TVA's Telework Policy
TVA's current policy related to telework is BP 20. Although the term telework is
not used within the policy, BP 20 defines off-site work as "official TVA work that is
performed in an employee's home or at a TVA-approved site such as a special
project site." According to the policy, TVA provides computers and other
equipment to employees for business purposes. Employees must have business
needs to complete work assignments off-site, to conduct work while in travel
status, to perform work off-site while recovering from illnesses or medical
treatments, or other needs that TVA identifies.

BP 20 states that, to be eligible for off-site use of business equipment, the
supervisor must determine the need for and duration of the off-site assignment
and submit written justification for approval to the appropriate organizational
Business Council member. In addition, the policy requires that employees
approved to work off-site attend training sessions to receive guidance on TVA's
expectations and requirements. Requests for training are to be submitted to
Corporate HR, HR Information Services.

We requested information related to the training and approvals as required by
BP 20 from TVA's HR Service Managers and found the following:

•   Environmental Stewardship and Policy's Environmental Audit (EA) auditors
    have teleworked since 2004 when a cross-organizational team including
    members from FM, IS, and the Office of the General Counsel (OGC) was
    formed to develop an alternative workplace strategy for the EA staff due to
    their frequent travel. As part of the program, the auditors each signed an
    agreement that was approved by their supervisor and HR consultant. The
    agreement provided guidance related to TVA's expectations including
    establishing core business hours and requiring the employee to provide a
    dedicated workspace, cell phone and high-speed internet connection, and
    performance standards.

No other HR Service Manager was aware of any approvals or training. We also
did not identify any assessment of functions or positions that would be conducive
to teleworking, other than the EA staff.




Audit 2008-11942                                                                Page 3
Office of the Inspector General                                                                    Audit Report


Current Teleworkers in TVA
Currently TVA does not maintain a tracking system of employees who telework.
To further determine current telework efforts, we requested the HR Service
Managers and selected HR consultants provide any information related to
teleworkers in their organizations. The EA staff were the only employees we
identified who telework on a regular basis. HR personnel provided information
related to the following employees who occasionally telework:

•     A part-time employee in River Operations.
•     River Operations employees who conduct hydrothermal forecasting after
      normal business hours.
•     Technicians in the IT Command Center for continuity of operations.
      Additionally, the staff is allotted 15 days per quarter to telework.

No other information related to individuals teleworking was provided. However,
one of the Service Managers stated that some telework is done in their
organization when in travel status but did not know whether BP 20 would have
applied to those situations.

Remote Access to TVA Systems
We obtained and reviewed a listing of weekly remote2 access to TVA systems via
the VPN. Currently, remote access is provided to TVA employees based on their
manager's approval as required in TVA's Standard Programs and Processes
(SPP) 12.3, Mobile and Remote Access to TVA's Information Resources.
SPP 12.3 "applies to TVA employees, contractors, grantees, and employees of
other federal agencies, state and local governments, business partners, and
other organizations and individuals who access TVA's network and/or information
systems from mobile and remote systems or devices."

For the week of July 25, 2008, there were 2,336 active VPN accounts with
1,140 unique users, which exceed the number of individuals identified by HR
personnel above. Based on this information, managers have essentially
approved the VPN users for telework through SPP 12.3. However, the guidance
and expectations that were requirements of BP 20 are not included in this SPP.

FUTURE/PLANNED INITIATIVES
We did not identify any future or planned initiatives with regard to telework.
However, recent legislation passed by the U.S. House of Representatives would
require TVA to implement specific telework initiatives if the bill passes the Senate
and is signed into law. In addition, an increase in the number of concurrent
remote users could require TVA to increase its VPN capabilities.


2
    Standard Programs and Processes 12.3 defines remote as "a geographical location wherein sufficient
    distance exists as to prohibit, in any way, physical corporate network connectivity via contiguous cable or
    wire when used in conjunction with computing and networking technology."
Audit 2008-11942                                                                                         Page 4
Office of the Inspector General                                                                    Audit Report


H.R. 4106, Telework Improvements Act of 2008
In June 2008, the House of Representatives passed H.R. 4106, Telework
Improvements Act of 2008. The purpose of the Act is "To improve teleworking in
executive agencies by developing a telework program that allows employees to
telework at least 20 percent of the hours worked in every 2 administrative
workweeks, and for other purposes."

Under the Act, the head of each agency is required to establish a telework policy
ensuring that those employees who are authorized to telework can do so to the
maximum extent possible without diminishing employee performance or agency
operations. The Act further states that not everyone must be authorized or
required to telework. In addition, appropriate training must be provided to
supervisors and all employees who are authorized to telework.

Each agency may appoint an officer to be known as the "Telework Managing
Officer" whose duties and responsibilities include (1) advising the head of the
agency on teleworking; (2) being a telework resource for supervisors, managers,
and employees; (3) ensuring the agency's teleworking policy and programs are
effectively communicated; (4) developing and administering a tracking system for
compliance with government-wide telework reporting requirements; and
(5) establishing a system for receiving feedback from agency employees on the
agency's telework policy.

According to TVA's OGC, TVA will be required to meet the requirements of the
Act if it becomes law. In our view, the key requirements contained in H.R. 4106
constitute good business practices regardless of whether it ultimately becomes
law that TVA is subject to.

TVA's current infrastructure can support 500 concurrent users without incurring
additional costs. (The maximum number of concurrent connections has been
160.) However, TVA could increase the number of concurrent users to 2,0003
with an upfront cost of $100,000 and annual costs of $8,000; an increase to
4,000 would require an additional $170,000 in upfront costs and additional
annual costs of $8,000.

OTHER INITIATIVES RELATED TO TELEWORK

We assessed whether TVA's COOP and Pandemic plan adequately included the
use of telework in those programs and found that both plans provide for essential
employees to move to alternate TVA locations, although the Pandemic plan has
a greater provision for teleworking at home. However, the COOP does not
require essential employees to take their laptop computers home each evening in
the event an emergency occurs and they are unable to move to the alternative
location.
3
    According to the General Manager, IT Infrastructure, an increase in concurrent usage exceeding 2,000
    users would also require a Digital Signal 3 line that increases Internet capabilities. This would add an
    additional $7,200 per year in costs.
Audit 2008-11942                                                                                        Page 5
Office of the Inspector General                                                                  Audit Report


We also noted that FM is considering telework in their space-reduction plans.
However, any decisions made would require buy-in from management.

Continuity of Operations Plan
The Federal Emergency Management Agency 2004 version of Federal
Preparedness Circular (FPC) 65, which provides guidance to the federal
executive branch on developing contingency plans for performing essential
functions during any emergency, instructs agencies to consider telework in their
COOP plans.

TVA's draft COOP4 provides "for the continued performance of mission essential
functions under all circumstances, particularly any emergency or situation that
may disrupt normal operations" and "for integration and coordination with other
governmental and non-governmental organizations as appropriate during
all-hazards emergencies or other situations that may disrupt operations." While
the Pandemic plan addresses operations under a global-disease outbreak, the
COOP is for any disruption to normal operations.

TVA's COOP assumes that a threat or emergency condition may require the
relocation of employees and operations to alternate sites and that the sites and
employees at those sites would be available to support operations. TVA's COOP
does not specifically address working from non-TVA locations. However, each
strategic business unit is responsible for developing their own COOP plan,
ensuring that the plan encompasses all business unit-identified essential
functions regardless of location.

We judgmentally selected the COOP plans for the Chief Financial Officer and
Procurement and reviewed each for any telework requirements. Both
organizational plans included identification of essential functions and plans for
moving to alternative TVA locations, and Procurement's plan included
telecommuting for those who can. However, there is no directive for essential
employees to take their laptop computers home each day in the event an
emergency occurs after hours, and they cannot relocate to the designated TVA
locations.

Pandemic Plan
TVA's current Pandemic plan allows TVA to maintain essential functions prior to,
during, and after a pandemic ― a global disease outbreak in humans. The plan
supplements traditional all-hazard COOP planning of FPC 65 by addressing
those challenges specific to a pandemic. TVA's pandemic planning criteria
includes (1) identification of essential functions and essential employees, (2) the
ability to work from home on a limited basis, (3) stockpiling of critical supplies and
materials for essential functions, (4) social distancing measures, and
(5) increased personal hygiene, health screening, and sanitation measures.


4
    As of the date of this report, the COOP had not been finalized and approved by management.
Audit 2008-11942                                                                                      Page 6
Office of the Inspector General                                             Audit Report


According to the plan, during periods of maximum disruption, telework needs will
be based on an assessment of essential functions and will only be permitted with
appropriate supervisory approval in accordance with BP 20. Telework from
home may be enacted for specific locations and for specified durations during the
pandemic.

In August 2007, the Pandemic team conducted a telework drill that consisted of
approximately 140 participants. According to the Manager, Health Services, HR,
the drills were conducted to determine how work groups could function from
remote locations in the event of a pandemic. Upon completion of the drill, the
Pandemic team surveyed the participants and their supervisors to assess the
effectiveness of the drill and identify any areas for improvement. The survey
found that the drill was effective, and problems were limited to the inability to print
from remote locations, speed of the Internet connection, and VPN issues due to
first-time use.

Telework and Reduction of Office Space
In 2007, FM conducted a teleworking study of TVA to see whether office space
costs could be reduced by implementing telework. Results of the study noted
that Chattanooga, with approximately 1.18 million square feet in the Chattanooga
Office Complex (COC), was the most important corporate office location to
consider for teleworking because, at the time of the study, negotiations were
underway to either construct a build-to-suit at Chickamauga or remain downtown
in a smaller space in the COC. The study noted that Knoxville, Nashville, and
Muscle Shoals had excess space with little opportunity to reduce the unused
square footage.

As part of FM's study, a survey was conducted which revealed managers would
not consider many jobs in the TVA corporate areas appropriate for teleworking.
Many managers had reservations about telework, such as a fear of losing control
over employees as well as concerns about productivity and security.

Currently, FM personnel are again looking at reducing office space through
consolidation of Chattanooga space. According to the Manager, Space
Management Planning and Design (SMP&D), FM has frequently considered
telework and whether it could drive down real estate costs. However, the greatest
challenges have been lack of clear policy related to telework, OGC concerns
about liability, and TVA supervisor and employee attitudes toward telework. The
Manager, SMP&D, stated that teleworking would have little impact on real estate
costs because a reduction of dedicated space for individual employees would be
offset by reconfigured collaborative space.




Audit 2008-11942                                                                 Page 7
Office of the Inspector General                                        Audit Report


RECOMMENDATIONS

We recommend the Chief Administrative Officer and Executive Vice President
(CAO and EVP), Administrative Services:

•   Work with other TVA organizations to perform an assessment to determine
    which jobs and functions in TVA are conducive to telework.

•   Consider a pilot program that would inform future decisions about telework
    and identify ways to use telework to facilitate COOP planning and responding
    to emergency situations such as pandemics or natural disasters.
•   Develop a telework policy that provides for:

    − A method for approving employees to telework.
    − Appropriate training to supervisors and all employees authorized to
      telework.
    − A tracking system for individuals who telework.
    − Effective communication of TVA's telework policy to TVA employees.

•   Consider designating a Telework Managing Officer.
•   Consider requiring that essential employees take their laptop computers
    home at the end of their workday in the event an emergency occurs and they
    are unable to move to the alternative location.

The CAO and EVP, Administrative Services, provided comments on a draft of
this report (see Appendix) and agreed to work with other TVA organizations to
determine which jobs and functions in TVA are conducive to telework. Upon
completion of that assessment, the CAO and EVP, Administrative Services, will
take appropriate actions regarding our other recommendations.




Audit 2008-11942                                                            Page 8
APPENDIX
Page 1 of 1
